Office of Inspector General



September 7, 2014

MEMORANDUM

TO:                            USAID/Afghanistan Acting Mission Director, James Hope
                               USAID Chief Financial Officer, Reginald Mitchell

FROM:                          OIG/Afghanistan Acting Country Director, Sarah E. Dreyer /s/

SUBJECT:                       Follow-Up on a Department of Defense Audit of Commander’s Emergency
                               Response Program Funds Provided to USAID/Afghanistan (Report No. F-
                               306-14-003-S)

This memorandum transmits our final follow-up assessment related to a Department of Defense
(DoD) audit of $40.1 million in Commander’s Emergency Response Program (CERP) funds
provided to USAID/Afghanistan. Although not an audit, this memorandum includes five
recommendations for USAID’s action.

In response to management’s comments, we deleted one recommendation that was in the draft
memorandum. We acknowledge management decisions on the five remaining
recommendations; please provide the Audit Performance and Compliance Division with the
necessary documentation to achieve final action on them. We disagree with management’s
decision on Recommendation 4, as described in our evaluation of management comments.
Please submit any revisions to OIG/Afghanistan.

Thank you for the cooperation and courtesy extended to my staff during this assessment.




U.S. Agency for International Development
Office of Inspector General
U.S. Embassy
Kabul, Afghanistan
http://oig.usaid.gov
Background
In 2009, the U.S. Department of Defense (DoD) entered into three Economy Act 1 orders with
USAID/Afghanistan. DoD provided funding to USAID—$40.1 million in CERP funds 2—to
implement three construction projects:

•   Construct two permanent two-way traffic bridges at Regak and Oshay in northern Uruzgan
    Province ($15.5 million).

•   Repair nine destroyed or damaged bridges in Ghazni and Zabul Provinces ($12.5 million).

•   Perform rough grading, maintenance, and minor upgrades to the Bamyan to Doshi Road
    ($12.1 million).

To implement the projects, USAID/Afghanistan awarded task orders under an indefinite quantity
contract to Louis Berger Group Inc./Black and Veatch Joint Venture (LBG/B&V).

The Office of Inspector General’s Country Office in Afghanistan (OIG/Afghanistan) followed up
on the DoD Office of Inspector General’s (DoD IG’s) audit 3 to determine whether the CERP
funds provided by DoD to USAID/Afghanistan were used for intended purposes and in
compliance with applicable laws and regulations.

Results
We conclude that the funds provided by DoD to USAID/Afghanistan were not always used for
their intended purposes or in compliance with applicable laws. The following sections
summarize DoD IG’s major findings and conclusions, as well as our conclusions on the same
matters.

Regak and Oshay Bridges Project

DoD IG reported that instead of two 2-lane bridges at Regak and Oshay, as called for in the
Economy Act order, only one 1-lane bridge at Regak was delivered. Our work confirmed this.
E-mail correspondence (detailed on the following page) between USAID and DoD project
managers for this Economy Act order indicates that DoD was aware that the funds provided
were insufficient for two bridges, but there was no amendment of the Economy Act order to
formalize the agreement between USAID and DoD to proceed with the Regak Bridge only.




1
   The Economy Act (31 U.S.C. 1535) authorizes federal departments and agencies to enter into
interagency agreements to obtain supplies or services.
2
  CERP is an appropriation designed to enable military commanders to respond to urgent humanitarian
relief and reconstruction requirements.
3
  DoD IG, DoD Needs to Improve Controls Over Economy Act Orders with U.S. Agency for International
Development, Report No. DODIG-2012-117, August 14, 2012.



                                                                                                 1
Summary of Key Correspondence Related to the Regak and Oshay Bridges

•   On January 1, 2010, an engineer with the Combined Forces Special Operations Component
    Command – Afghanistan (CFSOCC-A) sent an e-mail to USAID/Afghanistan, indicating that
    the Regak Bridge should receive higher priority than the Oshay Bridge.

•   In a June 11, 2010, meeting, the USAID/Afghanistan technical officer advised a technical
    officer representing the CFSOCC-A that:

       … the original budget of $15.5M provided by CERP did not include a
       superstructure for the Regak bridge [and] … TO [Task Order] #25's scope of
       work [SOW] only included the foundations, piers and abutments for that bridge.
       The SOW stated that the military would provide a steel-truss military-style bridge
       and erect it after LBG completed the substructure. There was later some
       documentation done in 2009 for CERP to add another $2.9M to TO #25 to
       include the Regak bridge superstructure, but [a previous CFSOCC-A technical
       officer] and USAID decided to hold off until we had firm prices from bids on both
       bridges, so that we would know exact costs. My opinion is that the cost of the
       Regak bridge alone from the upcoming bid opening, plus LBG’s overhead and
       security costs and helicopter support costs, should be within the current $15.5M
       budget. This should allow us to have LBG start the Regak bridge construction
       after the June 24 bid opening, and the military to decide if they want to add more
       CERP funding to cover the total costs of the Oshay bridge.

•   On September 4, 2010, the USAID/Afghanistan technical officer advised several CFSOCC-A
    engineers that building the Oshay Bridge in addition to the Regak Bridge would increase the
    budget from $15.5 million to between $21 million and $22 million. He indicated that
    “CFSOCC-A so far has expressed a preference to wait and see if the contractor can perform
    on the Regak bridge before they commit several million more for the Oshay bridge.”

•   In response, on September 5, 2010, a CFSOCC-A engineer advised that “For now, I’d like to
    stick with the wait and see approach. If we find that the contractor is making progress and
    we expect complete success, then we will consider a mod to add the Oshay bridge.”


USAID/Afghanistan signed a modification to its task order with LBG/B&V to remove construction
of the Oshay Bridge from the scope of work on May 19, 2011. USAID/Afghanistan provided
CFSOCC-A a copy of the modification on August 21, 2011.

    Recommendation 1. We recommend that USAID/Afghanistan request that the
    Department of Defense (DoD) amend its Economy Act order for the Regak and Oshay
    Bridges to formalize the agreement between USAID and DoD to construct the Regak
    Bridge only.

Additionally, according to the DoD IG audit report, LBG/B&V spent $1.7 million for security at
the Regak Bridge work site during a 9-month period when limited construction activity was
under way. Our work generally confirmed this observation. LBG/B&V incurred security costs to
protect the construction site and LBG/B&V’s fortified camp 7 kilometers away. These




                                                                                             2
installations were in a remote area affected by antigovernment elements. 4 Because insurgents
blocked access to the area, helicopters had to airlift equipment and materials to the site.

DoD IG reported that USAID potentially violated the Recording Statute 5 by not obligating the
funds for the agreed purpose. The Recording Statute requires agencies to record transactions
that meet specified standards for legitimate obligations. However, USAID has since clarified that
a section of the Economy Act order included security costs related to these activities, thereby
providing the appropriate authorization. The task orders that obligated funds for these security
costs were documented in writing, for a purpose authorized by law, as required by the
Recording Statute. Therefore, OIG makes no recommendation on this matter.

Nine Bridges Project

According to DoD IG, USAID paid the entire $12.5 million in this Economy Act order to its
contractor, 6 but only four of nine bridges were delivered. We confirmed that LBG/B&V delivered
only four of nine bridges. According to mission officials, they evaluated an inspection of the four
bridges and accepted them as meeting project requirements. On August 28, 2014, USAID
provided updated figures showing they paid LBG/B&V $6.7 million for the four bridges that were
delivered. USAID had also reported deobligating $5.7 million of the remaining funds from the
task order. On April 15, 2014, USAID reported that it had recently returned $5.58 million to DoD
after we asked if funds for the five unrepaired bridges had been returned. We were unable to
reconcile the difference.

    Recommendation 2. We recommend that USAID/Afghanistan examine the difference
    between the amount deobligated and the amount returned to the Department of Defense
    (DoD) to determine whether additional funds should be returned to DoD based on the
    amount DoD paid USAID.

DoD IG’s audit report indicated that USAID obligated $0.7 million from the Economy Act order
for “emergency or urgent works to be performed,” which was not part of the Economy Act order
and was not a bona fide need established during fiscal year 2009, when the appropriation was
available. This action potentially violated the Bona Fide Needs Rule, 7 the Economy Act, and the

4
  The Regak Bridge had been partially destroyed by insurgents who made a second, failed attempt to
destroy the bridge after LBG/B&V began work at the site.
5
   The Recording Statute (31 U.S.C. 1501, “Documentary evidence requirement for Government
obligations”) provides, in part:
    (a) An amount shall be recorded as an obligation of the United States Government only when
    supported by documentary evidence of—
         (1) a binding agreement between an agency and another person (including an agency) that
         is—
            (A) in writing, in a way and form, and for a purpose authorized by law; and
            (B) executed before the end of the period of availability for obligation of the appropriation
            or fund used for specific goods to be delivered, real property to be bought or leased, or
            work or service to be provided; …
6
  USAID reports that it paid $12.35 million to the contractor. However, USAID officials noted that an
additional $164,804 for USAID’s administrative fee and $39,059 reflects USAID’s indirect costs.
7
  The Bona Fide Needs Rule (31 U.S.C. 1502, “Balances available”) states:
    a) The balance of an appropriation or fund limited for obligation to a definite period is available
    only for payment of expenses properly incurred during the period of availability or to complete
    contracts properly made within that period of availability. Also, according to the Government



                                                                                                       3
Recording Statute. The Antideficiency Act may have been violated as well. We agree with the
DoD IG finding that USAID’s subobligation 8 of $0.7 million for “emergency and urgent works to
be performed” did not represent a bona fide need. It was outside the scope of the Economy Act
order, and USAID had no authority to enter into a subobligation for this purpose. Therefore,
USAID’s action violated the Bona Fide Needs Rule, the Recording Statute, and the Economy
Act. The violation of the Bona Fide Needs Rule implies that USAID may have violated the
Antideficiency Act, 9 unless other unexpended funds were available to replace the DoD funds to
which the $0.7 million subobligation was improperly charged.

DoD ratified USAID’s earlier use of this $0.7 million on August 14, 2013, by providing
$0.7 million in fiscal year 2010 CERP funds for this purpose, but USAID still needs to investigate
whether its subobligation resulted in a violation of the Antideficiency Act.

    Recommendation 3. We recommend that the Chief Financial Officer conduct an
    investigation of USAID/Afghanistan’s subobligation of $0.7 million in Commander’s
    Emergency Response Program funds for “emergency and urgent works to be
    performed” to see if this subobligation resulted in an Antideficiency Act violation.

Bamyan to Doshi Road Project

DoD IG reported that DoD received only $3.0 million worth of road maintenance, instead of the
full $12.1 million that was provided to USAID for this purpose. USAID unilaterally decided to use
the remaining $8.9 million for community development projects. 10 We confirmed that USAID
obligated $8.9 million from the Economy Act order for community development projects, a
purpose that was outside the scope of the Economy Act order.

    Recommendation 4. We recommend that USAID/Afghanistan obtain ratification of its
    use of $8.9 million for community development projects or return these funds to the
    Department of Defense.

DoD IG concluded that USAID’s obligation of $8.9 million for community development projects,
which were outside the scope of the Economy Act order, potentially violated the Bona Fide
Needs Rule and violated the Economy Act and the Recording Statute.

We confirmed that USAID’s obligation of $8.9 million for community and other development
projects was outside the scope of the Economy Act order and that USAID had no authority to
subobligate funds for this purpose. Therefore, USAID’s action violated the Bona Fide Needs
Rule, the Recording Statute, and the Economy Act. Moreover, USAID’s violation of these

     Accountability Office’s General Counsel (GAO/OGC 91-5 Appropriations Law Vol.1, pp. 5-10), the
     balance of a fixed-term appropriation "is available only for payment of expenses properly incurred
     during the period of availability or to complete contracts properly made within that period.”
8
   DoD obligated these funds through its Economy Act order with USAID. When USAID entered into a
contract with LBG/B&V, it used those same funds to fund the contract. We use the term “subobligation” to
distinguish USAID’s action (which used funds that were already obligated) from DoD’s action (which
obligated funds provided by an appropriation).
9
  The Antideficiency Act prohibits “making obligations or expenditures in excess of an apportionment or
reapportionment, or in excess of the amount permitted by agency regulations” [31 U.S.C. 1517(a)].
10
   DoD IG reported that $11.9 million paid to the contractor for the project was $0.2 million less than the
$12.1 million transferred to USAID for the project. The difference represents USAID’s project
management support and overhead costs.



                                                                                                         4
statutes implies that USAID may have violated the Antideficiency Act, unless other unexpended
funds were available to replace the DoD funds to which the $8.9 million subobligation was
improperly charged.

   Recommendation 5. We recommend that the Chief Financial Officer conduct an
   investigation of USAID/Afghanistan’s subobligation of $8.9 million in Commander’s
   Emergency Response Program funds for community development projects to see if this
   subobligation resulted in an Antideficiency Act violation.




                                                                                           5
EVALUATION OF MANAGEMENT
COMMENTS
Management provided comments in response to the draft memorandum. They are included in
Appendix II, without attachments, and represent the response for both addressees of this
memorandum. The comments indicate that USAID made management decisions on all five
recommendations.

In response to management’s comments, we deleted what was Recommendation 2 in the draft
memorandum and renumber subsequent recommendations accordingly. Management did not
agree with this recommendation, citing that security costs for activities were specified in Section
III-B.7 of the Economy Act order and are a vital component of road construction in Afghanistan.
Management considers these costs to be within the scope of the order. USAID’s response
called our attention to a provision in the applicable Economy Act order, which states that the
contractor, “will be responsible for security on the project …” We agree the terms of the
Economy Act order do specifically address security costs. In light of the Economy Act order’s
content related to this issue, which we previously did not consider, the task orders constitute the
requisite written record for security costs, authorized by law.

Recommendation 1. Management agreed with the recommendation and made a decision to
work with DoD to amend the Economy Act order to formalize the agreement to remove the
Oshay Bridge activities from the order. Management provided a target date of December 31,
2014, to complete this action. We acknowledge a management decision.

Recommendation 2 (Recommendation 3 in draft). Management partially agreed with this
recommendation. They disagreed with the amount that it was said to have paid LBG/B&V and
provided updated support for their figure of $6.7 million. Also, management reports not having
returned $5.58 million back to DoD. However, the OIG had already received correspondence
and supporting documentation showing this happened. Nonetheless, management said they
would work with the Office of Afghanistan and Pakistan Affairs Controller to ensure the full
amount of deobligated funds, $5,675,889, is reimbursed to DoD by USAID in Washington. They
provided a target date of December 31, 2014, to complete this action. We acknowledge a
management decision.

Recommendation 3 (Recommendation 4 in draft). Management agreed with the
recommendation and decided to ask the Chief Financial Officer to conduct an investigation on
the matter through the Funds Control Review Board. The board will determine whether a funds
control violation occurred. This action is in accordance with procedures described in USAID’s
Automated Directives System 634. Management provided a target date of December 31, 2014,
to complete this action. We acknowledge a management decision.

Recommendation 4 (Recommendation 5 in draft). Management disagreed with this
recommendation, referring to Section II-A of the Economy Act order, which states, “The CERP
is designed to enable local commanders in Iraq and Afghanistan to respond to urgent
humanitarian relief and reconstruction requirements within their areas of responsibility by
carrying out programs that will immediately assist the local population.” The comments state




                                                                                                 6
that the community development projects were designed for this purpose, and management
asks that the recommendation be closed.

OIG disagrees with management’s definition of activities that properly fall within the scope of
this Economy Act order. USAID points to the “Authority and Purpose” section of the Economy
Act order, which incorporates purposes for which CERP was designed. However, not all
activities that could be legally funded with CERP funds fall within the scope of this Economy Act
order. Legitimate activities are only those clearly falling within the “Scope of Work” section of the
order, which describes rough grading and maintenance of the Bamyan to Doshi Road. Applying
the mission’s logic, any USAID activity that would “enable local commanders in Iraq and
Afghanistan to respond to urgent humanitarian relief and reconstruction requirements within
their areas of responsibility by carrying out programs that will immediately assist the local
population” could legitimately be funded by DoD’s $12.1 million underlying the order. That logic
ignores the “Scope of Work” section of the Economy Act order.

More importantly, however, the specificity requirements of the Recording Statute would not
permit the “Authority and Purpose” section of the Economy Act order to serve as the scope of
work for this agreement, as USAID argues it does. In a relevant 2007 U.S. Government
Accountability Office (GAO) Decision, B-308944, Expired Funds and Interagency Agreements
between GovWorks and the Department of Defense, GAO found only one of several
interagency agreements, in place between DoD and GovWorks, a Department of the Interior
franchise fund, defined items and services for GovWorks to acquire on its behalf with enough
specificity to meet the requirements of the Recording Statute. In this decision GAO describes
the specificity requirement as “a long-standing principle of appropriations law, supported by
decisions of the Comptroller General and by the recording statute, 31 U.S.C. § 1501(a).” GAO’s
decision analysis continues:

       [The recording statute] requires that an interagency agreement be evidenced by
       a written document, executed during the period of availability of the appropriation
       used, for “specific goods to be delivered ... or work ... to be provided.” 31 U.S.C.
       § 1501(a) (emphasis added). The statute’s obvious purpose is to ensure that the
       parties understand and accept their rights and duties under the agreement and
       that Congress, as part of its oversight role, knows how agencies are obligating
       their funds.

The “Authority and Purpose” section of the Economy Act order would not, under this legal
authority, define with enough specificity the “rights and duties under the agreement.” Reliance
on the general purpose of the CERP funds to define the scope of work is insufficient and does
not address the potential Antideficiency Act violation described in this report.

USAID has therefore not provided information that would serve as a basis to remove this
recommendation. As a result, although we acknowledge that USAID has made a management
decision, to effectively not take any action regarding this recommendation, we disagree with that
decision.

Recommendation 5 (Recommendation 6 in draft). While management stated that the $8.9
million in question was reasonable, necessary, and within the scope of the Economy Act order,
they decided to follow Automated Directives System 634. It will ask the Chief Financial Officer to
conduct an investigation through the Funds Control Review Board review process. The board
will determine whether a funds control violation occurred. Management established a target date
of December 31, 2014, to complete this action. We acknowledge a management decision.


                                                                                                   7
                                                                                     Appendix I



SCOPE AND METHODOLOGY
Scope
OIG‘s Country Office in Afghanistan conducted this assessment in accordance with the Quality
Standards for Inspection and Evaluation, as issued in 2012 by the Council of the Inspectors
General on Integrity and Efficiency. Those standards require that findings be supported by
sufficient, competent, and relevant evidence. We believe that our conclusions are logical
inferences about the program or activity based on the assessment results.

The objective of the initial assessment was to determine whether CERP funds that
DoD/Combined Joint Task Force and Task Force Warrior and DoD/United States Forces-
Afghanistan distributed to USAID for specific projects were used for their intended purposes and
in compliance with applicable laws and regulations. The assessment was conducted in
Afghanistan from October 25, 2011, through April 19, 2012, and covered activities from October
2009 through March 2012. We conducted fieldwork at USAID/Afghanistan, work sites in
Uruzgan and Ghazni Provinces, and at LBG/B&V’s office in Kabul. A more focused
supplemental assessment was performed from September 2012 through November 2013,
following the release of a related DoD IG report, DoD Needs to Improve Controls Over Economy
Act Orders with U.S. Agency for International Development, Report No. DODIG-2012-117,
August 14, 2012. This report alleged a number of violations by USAID/Afghanistan in using the
CERP funds. This memorandum communicates the results of our follow-up assessment related
to a DoD audit of $40.1 million in CERP funds provided to USAID/Afghanistan.

The scope of our assessment was two bridges in Uruzgan Province, nine bridges on Highway
One, and the Bamyan to Doshi Road. However, it was constrained by security conditions that
prevented us from visiting all the CERP-funded bridges. In Ghazni Province—one of the two
provinces where the nine bridges were being constructed—we could evaluate only three bridges
because of the high security threat there.

Methodology
To answer the objective, the assessment covered projects as stipulated by the CERP funding
agreements between USAID/Afghanistan and DoD. We selected projects that were accessible
for evaluation, given the security situation.

The assessment team analyzed the Economy Act orders and interviewed DoD employees to
gain an understanding of the projects. The team selected employees at USAID/Afghanistan and
LBG/B&V to interview by e-mail and in person to gain an understanding of the progress of the
projects, all of the key players, and their roles and responsibilities.

We analyzed and evaluated monitoring reports and weekly progress reports that LBG/B&V
submitted to fulfill the reporting requirements.

To evaluate project progress, we got approval from the Embassy’s regional security office to
visit Uruzgan and Ghazni Provinces and see bridges there. We also reviewed DoD’s, USAID’s,
and LBG/B&V’s monitoring by examining procedures and interviewing staff from all three
organizations.



                                                                                              8
                                                                                    Appendix I


As background for determining whether USAID/Afghanistan violated the statutes in using CERP
funds provided through Economy Act orders, the assessment team obtained an understanding
of the Antideficiency Act, the Bona Fide Needs Rule (31 U.S.C. 1502), and the Recording
Statute (31 U.S.C. 1501). We also obtained USAID/Afghanistan’s regional legal advisor’s
interpretation of the rule and statute.

After DoD IG’s report on this project was issued in August 2012, OIG performed supplemental
assessment procedures to confirm or refute those assertions. Those procedures included
additional interviews with USAID/Afghanistan officials (current and past) with knowledge of the
CERP projects, as well as further analyses of agreements and regulations governing them.




                                                                                             9
                                                                           Appendix II



MANAGEMENT COMMENTS


MEMORANDUM                                                       August 27, 2014

TO:                James Charlifue, OIG/Afghanistan Director

FROM:              William Hammink, Mission Director

SUBJECT:           Draft Report on the Follow-up on a DoD Audit of CERP Funds
                   Provided to USAID/Afghanistan (Report No. F-306-14-00X-P)

REFERENCE:         JCharlifue/WHammink memo dated May 8, 2014


Thank you for providing USAID/Afghanistan with the opportunity to respond to
the Follow-up Report on a DoD Audit of CERP Funds Provided to
USAID/Afghanistan.

Background Information

Over 30 years of war has taken its toll on Afghanistan’s fragile infrastructure –
especially those roads and bridges essential to service delivery and economic
growth. USAID/Afghanistan is helping rebuild the transport sector to promote
trade and access to essential services in an effort to reduce unemployment and
improve the general security and stability of the region.

The northeastern section of the Ring Road, including the Salang Tunnel, is the
primary route connecting the north of the country to both the capital and the
provinces of the central and southern regions. The route and the tunnel are highly
susceptible to winter weather, traffic and congestion. Given the economic
importance of this trade route and vital importance of uniting the country, the
rehabilitation of an alternate route was essential. The temporary improvements
and maintenance of the Bamyan to Doshi Road consisted of implementing a design
and follow-on construction project for this vital link.
                                                                                    10
                                                                           Appendix II



A second component of rebuilding the transport sector was reconstruction of nine
bridges on Regional Highway I (Ring Road) in Ghazni and Zabul provinces
destroyed by Anti-Governmental Elements (AGE) in 2008. The required work at
each bridge ranged from complete reconstruction to repair of the superstructure.

A third transport sector project included reconstruction of a flood damaged
bridge near Regak in Uruzgan Province. The U.S. military at Forward
Operating Base (FOB) Cobra originally designated the Regak and Oshay bridges
as essential for their efforts in resisting AGE. Further, these bridges benefited the
local population (70,000) by providing access to social services (health and
education), new regional trade opportunities, and enabled easy access for farm-to-
market activities.

COMMENTS ON OIG’S RECOMMENDATIONS

Recommendation 1. We recommend that USAID/Afghanistan request that
DoD amend its Economy Act order for the Regak and Oshay bridges to
formalize the agreement between USAID and to construct the Regak bridge
only.

USAID Comments: The Mission concurs with Recommendation 1.

Actions Taken/Planned: As it was noted in the audit report, on September 4,
2010, the USAID/Afghanistan technical officer advised Combined Forces Special
Operations Component Command – Afghanistan (CFSOCC-A) engineers on the
potential increase of the project budget from $15.5 million to about $21 - $22
million in case the Oshay bridge was built in addition to the Regak bridge. In
response, on September 5, 2010, CFSOCC-A advised waiting to see if the
contractor was making progress and would complete the Regak bridge project
successfully. Then a modification could be considered to add the Oshay bridge
and increase the amount of CERP funds. USAID/Afghanistan signed a
modification to its task order with Louis Berger Group and Black & Veatch to
remove construction of the Oshay bridge from the scope of work on May 19,
2011. USAID/Afghanistan provided CFSOCC-A a copy of the modification on
August 21, 2011.

USAID will work with DoD to amend the Economy Act Order to formalize the
agreement and properly de-scope the Oshay bridge part of the project.

                                                                                   11
                                                                          Appendix II



Target Closure Date: December 31, 2014

Recommendation 2. We recommend that USAID/Afghanistan request that DoD
amend its Economy Act order to authorize expenses of $1.7 million on
security related expenses incurred at the Regak work site, or return these funds to
DoD.

USAID Comments: The Mission does not concur with Recommendation 2.
Section III.B.7 of the Economy Act Order specifically notes security to be
provided. Further, security is a vital component of road construction in
Afghanistan. Therefore, USAID considers the security work and related costs to
be within the scope of the Economy Act Order. No further amendment of the
Economy Act Order is required.

Closure Request:
Based on the above, we request OIG concurrence to close Recommendation 2.

Recommendation 3. We recommend that USAID/Afghanistan examine the
difference between the amount deobligated and the amount returned to DoD to
determine whether additional funds should be returned to DoD based on the
amount DoD paid USAID.

USAID Comments: The Mission partially concurs with Recommendation 3.

Actions Taken/Planned: The draft OIG report states USAID reported paying
$12.35 million to the contractor. According to the Phoenix report (Attachment 1),
USAID/Afghanistan obligated $12.35 million and paid $6.67 million to the
contractor. Attachment 1 also shows USAID de-obligated $5,675,889 of CERP
funds on April 6, 2013. USAID did not report returning $5.58 million to DoD.

The Mission will work with OAPA Controller to ensure the de-obligated funds of
$5,675,889 are fully reimbursed by USAID/Washington.

Target Closure Date: December 31, 2014

Recommendation 4. We recommend that the Chief Financial Officer conduct
an investigation of USAID/Afghanistan’s subobligation of $0.7 million in
CERP funds for “emergency and urgent works to be performed” to see if this
subobligation resulted in an Antideficiency Act violation.

                                                                                  12
                                                                       Appendix II



USAID Comments: The Mission concurs with Recommendation 4.

Actions Taken/Planned: Per ADS 634, the Mission will request M/CFO/FPS to
conduct an investigation via the Funds Control Review Board to make the final
determination on whether or not a funds control violation has occurred.

Target Closure Date: December 31, 2014

Recommendation 5. We recommend that USAID/Afghanistan obtain
ratification of its use of $8.9 million for community development projects or
return these funds to DoD.

USAID Comments: The Mission does not concur with Recommendation 5.
Section II.A of the Economy Act Order specifically states that “The CERP is
designed to enable local commanders in Iraq and Afghanistan to respond to urgent
humanitarian relief and reconstruction requirements within their areas of
responsibility by carrying out programs that will immediately assist the local
population.” These projects were designed for this purpose. USAID experience
with road construction in Afghanistan has demonstrated that community
development projects and buy-in are a critical part of any road project. Without
these projects and community buy-in, road construction would be severely
hindered or stopped altogether. Therefore, USAID considers this work and the
associated costs to be within the scope of the Economy Act Order.

Closure Request:
Based on the above, we request OIG concurrence to close Recommendation 5.

Recommendation 6. We recommend that the Chief Financial Officer
conduct an investigation of USAID/Afghanistan's subobligation of $8.9
million in CERP funds for community development projects to see if this
subobligation resulted in an Antideficiency Act violation.

USAID Comments: The Mission considers the sub-obligation of $8.9 million in
CERP funds for community development projects were reasonable and necessary
expenditures within the scope of the Economy Act Order, and therefore believes no
funds control violation occurred.



                                                                                13
                                                                        Appendix II


Actions Taken/Planned: The Mission will follow ADS 634 policy in requesting
M/CFO/FPS to conduct an investigation via the Funds Control Review Board
review process and make the final determination on whether or not a funds control
violation has occurred to ensure due process/diligence in resolving this issue.

Target Closure Date: December 31, 2014



Attachments:
1 – Phoenix Report

cc:   OAPA Afghanistan Audit
      Reginald Mitchell, Chief Financial Officer




                                                                                14
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
